APPENDIX A

United States v. Lopez-Mejia
United States Court of Appeals for the Fifth Circuit
May 13, 2021, Filed
No. 20-10930 Summary Calendar
Reporter
847 Fed. Appx. 249 *; 2021 U.S. App. LEXIS 14227 **; 2021 WL 1940875

UNITED STATES OF AMERICA, Plaintiff—Appellee,
versus JESUS LOPEZ-MEJIA, Defendant—Appellant.
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 3:19-CR592-1.
Counsel: For United States of America, Plaintiff - Appellee:
Jonathan Glen Bradshaw, Assistant United States Attorney,
Leigha Amy Simonton, Assistant U.S. Attorney, U.S.
Attorney's Office, Dallas, TX.
For Jesus Lopez-Mejia, Defendant - Appellant: Brandon
Elliott Beck, Federal Public Defender's Office, Lubbock, TX.
Judges: Before WIENER, SOUTHWICK, and DUNCAN,
Circuit Judges.

The record does not show that the district court failed to
account for a factor that should have received significant
weight, gave significant weight to an irrelevant or improper
factor, or committed a clear error of judgment in balancing
the 18 U.S.C. § 3553(a) factors. See United States v. Smith,
440 F.3d 704, 708 (5th Cir. 2006). Rather, the court
considered the parties' arguments, Lopez-Mejia's allocution,
and [**2] his criminal history. Lopez-Mejia's arguments
amount to no more than a request for this court to reweigh the
§ 3553(a) factors, which this court will not do as the district
court is "in a superior position to find facts and judge their
import under § 3553(a) with respect to a particular
defendant." United States v. Campos-Maldonado, 531 F.3d
337, 339 (5th Cir. 2008) (per curiam). Under the totality of
the circumstances, the sentence is reasonable. See United
States v. Gerezano-Rosales, 692 F.3d 393, 400 (5th Cir.
2012). Accordingly, the judgment of the district court is
AFFIRMED.

End of Document

Opinion
[*249] PER CURIAM:*
Jesus Lopez-Mejia challenges his 75-month sentence of
imprisonment imposed following his guilty plea conviction
for illegal reentry after removal from the United States.
Because Lopez-Mejia "advocate[d] for a sentence shorter than
the one ultimately imposed," he preserved his challenge to the
substantive reasonableness of the sentence. HolguinHernandez v. United States, 140 S. Ct. 762, 766-67, 206 L.
Ed. 2d 95 (2020). Accordingly, we review for abuse of
discretion. United States v. Johnson, 619 F.3d 469, 472 (5th
Cir. 2010).

* Pursuant

to 5TH CIRCUIT RULE 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

APPENDIX B

Case 3:19-cr-00592-B Document 39 Filed 09/09/20

Page 1 of 4 PageID 75

20-10930.51

Case 3:19-cr-00592-B Document 39 Filed 09/09/20

Page 2 of 4 PageID 76

20-10930.52

Case 3:19-cr-00592-B Document 39 Filed 09/09/20

Page 3 of 4 PageID 77

20-10930.53

Case 3:19-cr-00592-B Document 39 Filed 09/09/20

Page 4 of 4 PageID 78

20-10930.54

